No. 20-6363
IN THE
SUPREME COURT OF THE UNITED STATES

Andres F. Cabezas,

Petitioner,

v.

United States of America,

Respondent.

On Petition for a Writ of Certiorari
to the Eleventh Circuit Court of Appeals
Appeal No. 18-10258
PETITION FOR REHEARING

Andres F. Cabezas
Reg. No. 68854-018 Unit B-3
Federal Correctional Complex
P.0. Box 1031 (Low Custody)
Coleman, Florida 33521-1031

QUESTIONS PRESENTED
1. If a timely objection is made to a plea agreement's factual basis before
judgment is entered but after a district court's acceptance of a plea, is the
error preserved for purposes of harmless error review?
2. What is the minimum showing required by the government for a court to
find a factual basis to be sufficient?
3. Is the Eleventh Circuit's interpretation of receipt of child pornography
that

criminalizes

viewing

outside

the

2252(a)(2)?

1

conduct

prohibited by

18

U.S.C.

§

STATEMENT OF FACTS
The course of proceedings in Andres Cabezas's petition for certiorari is
encompassed in this statement of facts.
In the plea agreement's factual basis, the government provided no purported
specificities as to when Cabezas saw the illegal video, how he obtained it from
the technologically hidden "dark web", or proffered any evidence independent of
statements

for

the

charge

of conviction.

See Dkt.

67.

The plea hinged on

statements made by government agents, who reported vague and inaccurate claims
that

Cabezas

had

verbally

confessed

to

viewing

child

pornography

in

an

unrecorded custodial interview. Dkt. 1 at 15; Dkt. 14 at 19/21-22.
The receipt of child pornography charge was a fabrication used to induce a
guilty plea from Cabezas, which he later recanted of and attempted to withdraw.
Dkt.

90

(motion

admissions);

to

withdraw

Dkt 93 at 18

actual innocence);

plea);

Dkt

90-1

(letter

recanting

of

plea

(objections to PSR's offense conduct on basis of

Dkt. 110 at 103/23 (Cabezas's sworn testimony proclaiming

innocence). The district court denied the requests and objections to the plea's
factual basis, citing to an untested affidavit and the plea agreement's factual
basis. Dkt. 110 at 6-7.
On appeal, despite Cabezas having objected to the factual basis before the
district court,

the Eleventh Circuit reviewed the sufficiency of the plea's

factual basis for plain error, reasoning that because Cabezas had not timely
objected to the magistrate's report and recommendation, he had waived his right
to

review.

United

States

v.

797

Cabezas

Fed.

Appx.

415,

417

(11th Cir.

2019)(citing United States v. Garcia-Sandobal, 703 F.3d 1278, 1282 (11th Cir.
2013). Relying on Cabezas's admissions at the plea colloquy alone, the appellate
court ruled that the factual basis was sufficient. Id. Cabezas petitioned for
certiorari.

2

Shortly thereafter, Cabezas received an admission from the FBI that there
was no record of evidence of child pornography in his case file. See Cabezas v.
Federal

Bureau

of

Investigation,

No.

1:19-cv-00145-CJN,

Dkt.

30-1

(D.D.C.

2020)(FBI documentation showing no claimed exemptions for information of minor
victims). Further, in December 2020, Cabezas filed a motion for a return of his
digital property from the device purportedly used by him to commit the crime.
Dkt. 170. The government, through silence, did not oppose the action. Per the
motion, nor did it deny that their agents had attempted to return the iPhone to
Cabezas at the prison. Id. On January 11, 2021, the petition for certiorari was
denied. Cabezas now timely petitions for rehearing based on previously unraised
issues.

PETITION FOR REHEARING
Andres F. Cabezas respectfully requests this Court grant his petition for
rehearing for his petition for certiorari. A petition for rehearing on a denial
of certiorari "shall be limited to intervening circumstances of controlling
effect or to other substantial grounds not previously presented." Supreme Court
Rule 44.2. Here, Cabezas presents grounds that had been previously omitted that
implicate

the

validity

of

his

conviction,

which

has

further

support

in

developments in other proceedings (Statement of Facts, supra) to have been a
miscarriage of justice. Cabezas respectfully requests this Court to rehear his
petition

for

certiorari with

the

following

grounds,

with

emphasis

on

government's actions supporting that no crime had been committed by Cabezas.

3

the

1. Timeliness of Post-Plea-Acceptance Objections to a Factual Basis
The

Eleventh

Circuit's

rule

that

defendants

waive

opportunities

for

preserving error of a guilty plea's factual basis, if not made concomitantly
with

the

court's

acceptance,

is

contrary

to

the Federal Rule of Criminal

Procedure 11(b)(3). Specifically, Rule 11(b)(3) indicates that the court must
determine

the

factual

basis

for

the

plea

after its acceptance but before

entering judgment, as in prior the end of sentencing hearing (see Fed. R. Crim.
P. 32(k)(l)). This post-plea acceptance finding is the only one that counts.
Congress elucidated this in the 1966 Advisory Committee Notes for the current
language of the Rule. Burton v. United States, 483 F.3d 1182 (9th Cir. 1973);
see United States v. Moran, 452 F.3d 1162,

1171-72 (10th Cir. 2006)("Rule 11

also contemplates the existence of the factual basis for the plea both when the
court accepts the plea, and when it enters judgment on it.").
Cabezas had objected to the factual basis prior to sentencing, Dkt. 93 at
18, and the district overruled the objections and made the determination that
the factual basis was adequate at sentencing. Dkt. 110 at 67. Per the rules, the
district court's only required finding on the sufficiency of a factual basis was
the

finding made

before

judgment,

i.e.

at sentencing.

And the objected-to

court's finding at sentencing should have been the only one considered by the
appellate court for review purposes.
The appellate court's rulings permitting the district court to determine a
factual

basis

for

a

plea

at

its

acceptance

is

in

error.

In

Cabezas's

circumstances, the error resulted in Cabezas's issue undergoing rigorous plain
error review, which prevented further scrutiny of Cabezas's actual-innocencebased objections, including the vagaries of the government's proffers of the
criminal activity purportedly conducted by Cabezas (Dkt. 1 at 15), along with

4

the

plain

non-existence

of

independent

evidence

supporting

the

charge

of

conviction. The appellate court instead permitted the district court's reliance
on hearsay to find the conviction valid. The Eleventh Circuit's current rule,
essentially, prevents defendants from preserving objections to a factual basis
if it is brought to the court's attention after the plea's acceptance, even it
would be considered timely.

This is also in spite of the rules of criminal

procedure permitting withdraw of the plea after a court's acceptance for a fair
and just reason

(including,

presumably,

actual innocence). Fed. R. Crim. P.

11(d)(2). An action that Cabezas attempted. Dkt. 90.
Cabezas respectfully requests this Court grant the rehearing and order the
Solicitor General to respond for further briefing of when an objection to a
factual basis is considered timely.
2. The Minimum Standard for a Sufficient Factual Basis
When the appellate court determined that the district court had not erred
in finding a sufficient-factual basis to the plea agreement,

it did so by

exclusively relying on Cabezas's admission at the plea colloquy, which involved
the following exchange:
Court: Beginning at page 18 of your plea agreement and continuing on to
page 19 is a section titled facts. What it says in there about you,
is that true?
Cabezas: Yes, your honor.
Court: Is that what you did?
Cabezas: Yes, your honor.
Dkt.

84 at 19/3-9.

That was it.

The factual determination was a yes or no

question from an unseen document by the mentally ill Cabezas, who was diagnosed
with a personality disorder that made him want to please authorities figures.
Dkt.

97-1 at 6-7

(Sep. 8, 2017 letter from psychologist diagnosing Avoident

5

Personality Disorder). A mental illness known by, but not disclosed by, counsel
to

the

court.

Compare

Id.

with Dkt.

84

at

3-4

(counsel

only mentioning

depression). The appeals court never considered the quality of the colloquy, and
the lack of independent evidence connecting Cabezas to the receipt of child
pornography charge, it only concerned itself with the admissions.
Regardless, the Eleventh Circuit's determination that admissions alone are
sufficient to determine a factual basis is not unique. See United States v.
653 F.3d 697, 699 (8th Cir. 2011); United States v. Torrellas, 455

Christeson

F.3d 96, 99 (2d Cir. 2006). In contrast, the D.C. Circuit finds that a factual
basis requires more than admissions:

"To demonstrate a satisfactory factual

basis, the government must have evidence from which a reasonable juror could
conclude that the defendant was guilty as charged." In re Sealed Case, 153 F.3d
759, 771 (D.C. Cir. 1998).
This Court's guidance is needed; reliance on admissions alone is ripe for
abuse

and

conviction

of

the

actually

innocent,

which is what happened in

Cabezas's case. Under the Eleventh Circuit's standard,

anyone can plead to

anything if the government approves, even false charges induced by intimidation,
deception, or preying on the ignorance of a defendant and a defense attorney
with no

scruples.

This is not a hypothetical.

Cabezas,

and surely others,

pleaded to charges they are innocent of, and the truncation of the district
court's truth finding process permitted this for the sake of efficiency, which
should be secondary.
The D.C. court's standard, an inverse of the actual innocence standard,
offers a defendant much more protection from a miscarriage of justice. Providing
for its own concerns of efficiency, this Court could provide a similar standard,
and one which is not far removed from its decision in Opper v. United States,

6

348 U.S. 84, 93 (1954). In Opper, this court found that admissions alone were
not enough unless corroborated by independent evidence. By having the government
provide at least one source of independent corroborating evidence, the courts
can be assured that the factual basis is sufficient and grounded in truth.
In Cabezas's case,

there is no independent evidence.

It is a repeated

story, with words and nothing else to support it but itself. That is not to say
that evidence could not have been acquired, if it existed. The FBI has custody
of

the

device

purportedly used

to

receive

the child pornography,

and the

corresponding passcodes. But no evidence has ever or will exist, because Cabezas
did not receive child pornography. His challenge to the guilty plea implicates
not only actual innocence, but also a miscarriage of justice.
In order for the justice system to work, Cabezas (or anyone) may not be
permitted to plead guilty to a lie. Brady v. United States, 397 U.S. 742, 747
(1970).

Cabezas

respectfully

requests

this

Court

rehear

his

petition

for

certiorari with this issue in order to promote alignment of the circuits.

3. Eleventh Circuit Including Prohibiting Viewing by 18 U.S.C. § 2252A
In its opinion, the Eleventh Circuit resolved Cabezas's vagueness challenge
to 18 U.S.C. § 2252A by citing its proposition in Woods v. United States, 684
F.3d 1045, 1058 (11th Cir. 2012): "we [] hold that the words 'knowingly' and
'received' clearly conveyed that a person who intentionally viewed, acquired, or
accepted child pornography from an outside source violated § 2252A." Cabezas,
797 Fed. Appx. at 417 (emphasis added). However, the Eleventh Circuit's unique
holding of § 2252A prohibiting the act of intentionally viewing is not described
in the attendant statute. The statute states: "Any person who knowing receives
or distributes any [child pornography] • • • " 18 U.S.C. § 2252A(a)(2). Receiving an
object requires that the user takes dominion and control over the object. United

7

States v. Romm, 455 F.3d 990, 998 (9th Cir. 2006). Viewing, unless demonstrating
that the object was also in the receivers control, cannot be prohibited per the
language of this statue.
To illustrate a hypothetical act of intentional viewing without receiving,
imagine a Zoom teleconference meeting involving multiple individuals who's goal
is to simply talk about movies. At one point, a participant turns the camera to
show scenes of a bootleg superhero movie to the other participants that is
playing on his television. The other participants, not objecting to seeing
content,

are intentionally viewing the bootleg but have neither custody nor

control of the broadcasted content.

Have the Zoom viewers, having willingly

agreed to participate in the teleconference (and even perhaps considering the
participants

know

that

one

of them to has a penchant for bootleg movies)

intentionally watched the movie, and therefore received it? And what if, instead
of

a

each of the viewers watched the bootleg movie through

Zoom meeting,

binoculars

from

across

the

street?

In

either

scenario,

the

viewers

are

intentionally viewing, but have neither custody nor control over what they are
watching.
Indeed,
offender
completed

viewing is not an element of the crime under

downloads
the

child pornography,

crime.

It

is

only

but

the

act

does
of

not

§

view it,

intentionally

2252A.

If an

he has still
receiving

the

contraband that is illegal. See United States v. Millner, 527 F.3d 54, 64-69 (3d
Cir.

2008)(conviction upheld although defendant denied viewing electronically

stored files);

United States v.

Osbourne,

935 F.2d 32,

34 & n.2 (4th Cir.

1991)(affirming conviction because defendant had ordered child pornography, even
though he never viewed the pictures). Viewing, in short is only evidence of
intent to receive, not an element of the offense, and cannot be used to satisfy
the elements of a crime.

8

The conduct alleged by the government that Cabezas had committed does not
encompass receipt. Dkt. 1 at 15. Cabezas requests that this court rehear his
petition for certiorari, and order the Solicitor General to respond.

CONCLUSION
Cabezas respectfully requests this Court grant him rehearing on the basis
of the above mentioned new developments in other proceedings and his newly
presented grounds.
Respectfully submitted by Andres F. Cabezas on February 5, 2021:

Reg. No. 68854-018 Unit B-3
Federal Correctional Complex
P.0. Box 1031 (Low Custody)
Coleman, Florida 33521-1031
CERTIFICATE OF GOOD FAITH
I hereby certify that this document consists of issues not raised before in
the prior petition for certiorari to this Court and is presented in good faith
and not for delay.

Andres Cabezas
VERIFICATION
Under penalty of perjury as authorized in 28 U.S.C. § 1746, I declare that
the factual allegations and factual statements contained in this document are
true and correct to the best of my knowledge.

s~\

Andres

9

